No. 19-1122
DECLARATION OF SERVICE

HONG TANG
Petitioner
V.

THE UNIVERSITY OF BALTIMORE, et al.
Respondents

As required by Supreme Court Rule 29.5(c), I hereby certify that on June 11, 2020,
three (3) copies of the PETITION FOR REHEARING and APPENDIX were served,
via first-class mail, on the following:
Lillian Lane Reynolds (Counsel for all respondents)
Office of the Attorney General of Maryland
Educational Affairs Division
200 St. Paul Place
Baltimore, MD 21202-2021

Pursuant to 28.U.S.C. ยง 1746,1 declare under penalty of perjury that the foregoing is
true and correct.
Executed on June 11, 2020

RECEIVED
JUN 1 6 2020
OFFICE OF THE CLERK
SUPREME COURT. U,S.

HONG TANG

